NO. _______________________
____________________________
IN THE SUPREME COURT OF THE UNITED STATES
__________________________________________________
SAMUEL HOGANS - PETITIONER
v.
UNITED STATES OF AMERICA - RESPONDENT
___________________________________________________
MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
The Petitioner, Samuel Hogans, by counsel, moves the Court for leave
to file the attached petition for a writ of certiorari without prepayment of
costs and to proceed in forma pauperis. In support thereof, the Petitioner
states that the United States Court of Appeals for the Fourth Circuit
appointed counsel in the current proceeding pursuant to the Criminal Justice
Act. A copy of the order of appointment is appended hereto.
Respectfully submitted,
Samuel Hogans
By CJA Appointed Counsel
/s/ Barry P. Beck
Barry P. Beck
POWER BECK & MATZUREFF
308 W. Burke Street
Martinsburg, WV 25401
Tel: (304) 264-8870
Fax: (304 264-8585

USCA4 Appeal: 19-4430

Doc: 9-1

Filed: 06/21/2019

Pg: 1 of 2

Total Pages:(1 of 8)

FILED: June 21, 2019
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
___________________
No. 19-4430 (L)
(3:18-cr-00054-GMG-RWT-1)
___________________
UNITED STATES OF AMERICA
Plaintiff - Appellee
v.
SAMUEL HOGANS, a/k/a Richard Hogans, a/k/a Lex, a/k/a Abdullah
Defendant - Appellant
___________________
ORDER
___________________
The court grants the motion to withdraw as counsel on appeal.
The court appoints Barry Beck to represent Samuel Hogans on appeal.
Counsel is referred to the CJA Payment Memorandum and the CJA eVoucher
Page for information on appointment terms and procedures.
CJA authorization for preparation of transcript is obtained by submitting an
AUTH-24 request in the district eVoucher system. New appellate counsel must
contact district eVoucher staff for appointment to the underlying district court case
in order to submit the AUTH-24 request for district judge approval and the CJA 24

USCA4 Appeal: 19-4430

Doc: 9-1

Filed: 06/21/2019

Pg: 2 of 2

Total Pages:(2 of 8)

voucher for transcript payment. Counsel must also submit a Transcript Order Form
to the court reporter and district court and file the same in the court of appeals with
the docketing statement. Upon filing of the Transcript Order Form, the Fourth
Circuit will set deadlines for completion of the transcript.
CJA 20 and 21 vouchers are submitted for payment through the Fourth
Circuit's CJA eVoucher system. Upon receiving email notification of this
appointment from eVoucher, counsel may create CJA 20 and 21 vouchers for use in
maintaining time and expense records and paying for expert services.
In light of this appointment, appellate counsel is granted access to sealed
district court material, with the exception of ex parte or in camera material. Any
transcripts or record material sent to prior counsel shall be provided by prior
counsel to newly appointed counsel. If record items are not available from former
counsel, new counsel should contact the Fourth Circuit Appointments Deputy for
assistance in obtaining these items.
The court having appointed new counsel for purposes of this appeal, any
motion for further substitution of counsel shall be disfavored.
For the Court--By Direction
/s/ Patricia S. Connor, Clerk

USCA4 Appeal: 19-4430

Doc: 9-2

Filed: 06/21/2019

Pg: 1 of 6

Total Pages:(3 of 8)

UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
OFFICE OF THE CLERK
1100 East Main Street, Suite 501
Richmond, Virginia 23219-3517
www.ca4.uscourts.gov
Patricia S. Connor
Clerk

Telephone
804-916-2700

June 21, 2019
___________________________
CJA COUNSEL NOTICE
___________________________
No. 19-4430 (L), US v. Samuel Hogans
3:18-cr-00054-GMG-RWT-1
TO: Mr. Barry Philip Beck
POWER, BECK & MATZUREFF
308 West Burke Street
Martinsburg, WV 25401-0000
304-264-8870
bpbeck@frontier.com
Thank you for accepting appointment on appeal in this case. This office will
work with you in any way necessary in connection with the appointment. The
case manager for this case is Emily Borneisen, and the following information is
provided for your use (click on an underlined document to access the document
on the court's web site, www.ca4.uscourts.gov).
Initial Forms: Following forms must be filed within 14 days.
• Appearance of Counsel (must be registered for electronic case filing)
• Docketing Statement (required for appointments at the beginning of the
appeal)
• Transcript Order Form (order any necessary transcript)
Appointment and Case Information: Time and expense records must be
maintained in accordance with the CJA Payment Memorandum to permit
payment at the end of the case.

USCA4 Appeal: 19-4430

Doc: 9-2

Filed: 06/21/2019

Pg: 2 of 6

Total Pages:(4 of 8)

All case filings must be made using the court's Electronic Case Filing system
(CM/ECF). Counsel not yet registered for electronic filing should proceed to the
court's web site to register as an ECF filer. See Required Steps for
Registration as an ECF Filer.
Copies of any documents filed on appeal to date are accessible on the
court's docket. Documents filed by a party while proceeding pro se will not
be considered by the court unless renewed by counsel.
Record: Counsel should use a fee exempt account for all PACER access in CJA
cases. If you do not have a fee exempt account, email pacer@psc.uscourts.gov
and list the courts in which you serve as CJA counsel. PACER will respond to
you with an email updating your PACER credentials to include access as CJA
counsel and instructing you on how to use the updated credentials. The district
court’s PACER docket and electronic documents are accessible through a link to
the district court docket from the appellate docket. The "Create Appendix"
option enables counsel to combine multiple documents into one PDF record for
printing or saving.
Presentence Report, Statement of Reasons, Transcripts: Since the
presentence report and statement of reasons are sealed documents and the
transcript is restricted from public access during the redaction period, counsel
may need to make special arrangements to obtain these documents. If record
items are not available from former counsel, new counsel should contact Lisa
McFarland, the Fourth Circuit Appointments Deputy, at 804-916-2744, for
assistance in obtaining these items.
CONTACT INFORMATION:
Former counsel:

Defendant:

James T. Kratovil
Direct: 304−728−7718
Email: kratovil@charlestownlaw.com
KRATOVIL & KRATOVIL
P.O. BOX 337
CHARLES TOWN, WV 25414
SAMUEL HOGANS- USM# 12338-087
Eastern Regional Jail

USCA4 Appeal: 19-4430

Doc: 9-2

Filed: 06/21/2019

Pg: 3 of 6

Total Pages:(5 of 8)

94 Grapevine Road
Martinsburg, WV 25405
Lisa McFarland, Deputy Clerk
804-916-2744
cc:
Defendant
Paul Thomas Camilletti
Lynette Danae DeMasi-Lemon
Jeffrey Akira Finucane
Carrie Lydia Lehman
CJA Contacts NDWV
Lara Kay Omps-Botteicher
Cheryl Dean Riley

SEALED & CONFIDENTIAL MATERIALS
Internet Availability of Docket & Documents
Fourth Circuit case dockets and documents are available on the Internet via the
Judiciary's PACER system (Public Access to Court Electronic Records). The Fourth
Circuit docket is available on the Internet even if the district court docket was
sealed. If a party's name was sealed in the district court, it should be replaced by
"Under Seal" or a pseudonym on appeal.
Due to the electronic availability of court documents, the federal rules prohibit
including certain personal data identifiers in court filings. In addition, parties should
not include any data in their filings that they would not want on the Internet.
Counsel should advise their clients on this subject so that an informed decision can
be made. Responsibility rests with counsel and the parties, not with the clerk.
Documents filed by the parties in immigration and social security cases are not
accessible over the Internet to the public. In immigration and social security cases,
public Internet access is limited to the court's docket, orders, and opinions.
Federal Rules of Procedure
The federal rules of procedure require filers to redact any of the following personal
data identifiers (PDIs) if included in court filings: (1) social security and tax ID
numbers must be limited to last four digits; (2) minor children must be identified by
their initials only; (3) dates of birth must show the year only; (4) financial account

USCA4 Appeal: 19-4430

Doc: 9-2

Filed: 06/21/2019

Pg: 4 of 6

Total Pages:(6 of 8)

numbers must be limited to the last four digits only; and (5) home addresses in
criminal cases must be limited to city and state only. The federal rules establish
limited exceptions to these redaction requirements. See Fed. R. App. P. 25(a)(5);
Fed. R. Civ. P. 5.2; Fed. R. Crim. P. 49.1; Fed. R. Bankr. P. 9037
Judicial Conference Privacy Policy
In addition, the judiciary's regulation on Privacy Policy for Electronic Case Files
prohibits filers from including any of the following criminal documents in the
public file: (1) unexecuted summonses or warrants; (2) bail or presentence reports;
(3) statement of reasons in judgment of conviction; (4) juvenile records; (5)
identifying information about jurors or potential jurors; (6) CJA financial affidavits;
(7) ex parte requests to authorize CJA services and (8) any sealed documents, such
as motions for downward departure for substantial assistance, plea agreements
indicating cooperation, or victim statements.
Local Rule 25(c)
Local Rule 25(c) limits the sealing of documents by requiring that sealed record
material be separated from unsealed material and placed in a sealed volume of the
appendix and by requiring the filing of both sealed, highlighted versions and public,
redacted versions of briefs and other documents.
Documents that were not sealed before the agency or district court will not be
sealed in this court unless a motion to seal is filed and granted in this court.
Since the ECF events for sealed filings make the documents accessible only to the
court, counsel must serve sealed documents on the other parties in paper form.
Sealed Volume of Appendix
If sealed record material needs to be included in the appendix, it must be placed in a
separate, sealed volume of the appendix and filed with a certificate of
confidentiality. In consolidated criminal cases in which presentence reports are
being filed for multiple defendants, each presentence report must be placed in a
separate, sealed volume served only on Government counsel and counsel for the
defendant who is the subject of the report.
•

Use ECF event-SEALED APPENDIX to file sealed electronic appendix
volume(s). One sealed paper volume must be sent to the court. If the case is
tentatively calendared for oral argument, 3 additional paper copies of the
sealed appendix must be filed, with additional copies being ordered by the

USCA4 Appeal: 19-4430

•

•

Doc: 9-2

Filed: 06/21/2019

Pg: 5 of 6

Total Pages:(7 of 8)

court if otherwise needed. Cover of sealed appendix volume must be marked
SEALED, and paper copies must be placed in envelopes marked SEALED.
Sealed volume must be served on other parties in paper form.
Use ECF event-Certificate of confidentiality to identify authority for
treating material as sealed and to identify who may have access to sealed
material. A paper copy of the certificate of confidentiality must accompany
the paper copy of the sealed appendix filed with the court.
Use ECF event-APPENDIX to file public electronic appendix volumes(s).
One public paper volume must be sent to the court. If the case is tentatively
calendared for oral argument, 3 additional paper copies of the appendix must
be filed, with additional copies being ordered by the court if otherwise
needed. Paper copies of public volumes of appendix do not need to be served
on other parties if they were served with public appendix in electronic form.

Sealed Version of Brief
If sealed material needs to be referenced in a brief, counsel must file both a sealed,
highlighted version of the brief and a public, redacted version of the brief, as
well as a certificate of confidentiality.
•

•

•

Use ECF event-SEALED BRIEF to file sealed electronic version of brief in
which sealed material has been highlighted. One sealed paper copy must be
sent to the court. If the case is tentatively calendared for oral argument, 3
additional paper copies of sealed brief must be filed, with additional copies
being ordered by the court if otherwise needed. Cover of sealed brief must be
marked SEALED, and paper copies must be placed in envelopes marked
SEALED. Sealed version must be served on other parties in paper form.
Use ECF event-Certificate of confidentiality to identify authority for
treating material as sealed and to identify who may have access to sealed
material. A paper copy of certificate of confidentiality must accompany the
paper copy of the sealed brief filed with the court.
Use ECF event-BRIEF to file public electronic version of brief from which
sealed material has been redacted. One paper copy must be sent to the court.
If the case is tentatively calendared for oral argument, 3 additional paper
copies of the brief must be filed, with additional copies being ordered by the
court if otherwise needed. Paper copies of public brief do not need to be
served on other parties.

Sealed Version of Motions and Other Documents

USCA4 Appeal: 19-4430

Doc: 9-2

Filed: 06/21/2019

Pg: 6 of 6

Total Pages:(8 of 8)

If sealed material needs to be referenced in a motion or other document, counsel
must file both a sealed, highlighted version and a public, redacted version, as
well as a certificate of confidentiality.
•

•

•

Use ECF event-SEALED DOCUMENT to file sealed electronic version of
document in which sealed material has been highlighted. First page of
document must be marked SEALED. No paper copies need be filed, but
other parties must be served in paper form.
Use ECF event-Certificate of confidentiality to identify authority for
treating material as sealed and to identify who may have access to sealed
material.
Use the appropriate ECF event (e.g., MOTION or RESPONSE/ANSWER)
to file public electronic version of document from which sealed material has
been redacted. No paper copies of public document are needed for filing or
service.

Motions to Seal
Counsel should file a motion to seal if the material was not previously sealed by
virtue of the Privacy Policy for Electronic Case Files, or by statute, rule, regulation,
or order. Counsel should also file a motion to seal if it is necessary to seal the
entire brief or motion and not possible to create a public, redacted version.
The motion to seal must appear on the public docket for five days; therefore,
counsel must file both a sealed, highlighted version of the motion to seal (along
with a certificate of confidentiality) and a public, redacted version of the motion
to seal. The motion to seal must identify the document or portions thereof for
which sealing is requested, the reasons why sealing is necessary, the reasons a less
drastic alternative will not afford adequate protection, and the period of time for
which sealing is required.
For further information on redacting information from filings, please see No. 19,
How do I redact items from pleadings?

